             Audit Report



 Claimant Representatives at the
Disability Determination Services
              Level




     A-01-13-13097 | February 2014
MEMORANDUM


Date:      February 27, 2014                                                  Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Claimant Representatives at the Disability Determination Services Level (A-01-13-13097)

           The attached final report presents the results of our audit. Our objective was to analyze certain
           characteristics of claims with representatives at the disability determination services.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Claimant Representatives at the Disability Determination
Services Level
A-01-13-13097
February 2014                                                               Office of Audit Report Summary

Objective                                  Our Findings

Our objective was to analyze certain       We found some differences between claims with a representative
characteristics of claims with             and claims without a representative. The degree to which
representatives at the disability          representatives assist claimants can vary greatly.
determination services (DDS).
                                           Our 275 sample cases had 379 DDS-level determinations because
Background                                 104 had a representative for both the initial claim and
                                           reconsideration levels.
A claimant may appoint a qualified
individual to represent him/her in         Of the 379 determinations, in
pursuing his/her claim. This
individual, a representative, may be an    •   84, we found no evidence the representative assisted with the
attorney or a non-attorney and must            claim. However, there was no indication that DDS staff ever
not be disqualified or suspended from          contacted 26 of the 84 representatives. Also, 10 of the
acting as a representative in dealings         84 representatives were paid fees.
with the Social Security
Administration (SSA) or prohibited by      •   154, the representative assisted with filing the claim but did not
any law from acting as a                       assist the DDS with claim development in the disability
representative. Attorneys must be in           determination.
good standing with the court in which
they were admitted to practice and         •   141, the representative assisted throughout the claims process.
non-attorneys must be of good
character and capable of giving
valuable help.

To ensure claimants receive competent
services from their representatives and
improve the efficiency of its
administrative process, SSA
formulated the Rules of Conduct and
Standards of Responsibility for
Representatives. For example, a
representative must assist a claimant in
complying, as soon as practicable, with
SSA or the DDS’ requests for
information or evidence.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Allowance Rates ........................................................................................................................3
     DDS Processing Times ..............................................................................................................4
     Representative Did Not Provide Assistance ..............................................................................5
           DDS Did Not Always Seek Help from Representative .......................................................6
     Representative Assisted with Filing the Claim Only .................................................................6
     Representative Assisted Throughout the Claims Process ..........................................................7
     Representatives Did Not Always Comply with Requests..........................................................8
     Types of Representatives ...........................................................................................................8
           Attorney Representatives .....................................................................................................9
           Non-Attorney Representatives .............................................................................................9
     Feedback from Stakeholders ....................................................................................................10
Conclusions ....................................................................................................................................10
Agency Comments .........................................................................................................................10
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Feedback from Stakeholders ............................................................................... B-1
Appendix C – Breakout of Claims by State and Claim Type .................................................... C-1
Appendix D – Non-Attorney Representatives ............................................................................ D-1
Appendix E – Agency Comments ...............................................................................................E-1
Appendix F – Major Contributors............................................................................................... F-1




Claimant Representatives at the DDS Level (A-01-13-13097)
ABBREVIATIONS
ALJ                  Administrative Law Judge

C.F.R.               Code of Federal Regulations

CR                   Claims Representative

CY                   Calendar Year

DDS                  Disability Determination Services

DI                   Disability Insurance

FY                   Fiscal Year

NADE                 National Association of Disability Examiners

NADR                 National Association of Disability Representatives

NCDDD                National Council of Disability Determination Directors

NCSSMA               National Council of Social Security Management Associations

NOSSCR               National Organization of Social Security Claimants’ Representatives

OGC                  Office of the General Counsel

OIG                  Office of the Inspector General

POMS                 Program Operations Manual System

SSA                  Social Security Administration

SSI                  Supplemental Security Income

U.S.C.               United States Code




Claimant Representatives at the DDS Level (A-01-13-13097)
OBJECTIVE
Our objective was to analyze certain characteristics of claims with representatives at the
disability determination services (DDS). 1

BACKGROUND
The Social Security Administration (SSA) provides Disability Insurance (DI) benefits and
Supplemental Security Income (SSI) payments to eligible individuals under Titles II and XVI of
the Social Security Act. 2 A person may file an application for disability benefits in person, by
telephone, or on the Internet. It is the field office claims representative’s (CR) role to ensure
complete and accurate claims development at the field office.

If the claimant meets the non-disability criteria for benefits, the CR forwards the application to
the DDS in the State that has jurisdiction for the disability determination. The DDS then reviews
the claims file and makes required efforts to obtain medical or other evidence before making an
initial determination. If a claimant disagrees with the initial DDS determination, he/she can file
an appeal for reconsideration within 60 days of the date SSA notifies him/her of the
determination. Generally, the administrative review process includes (1) an initial determination
by the DDS (2) reconsideration by the DDS, 3 (3) a hearing by an administrative law judge (ALJ),
and (4) an Appeals Council review.

A claimant may appoint an attorney or qualified non-attorney to represent him/her in pursuing
his/her claim. This representative must not be disqualified or suspended from acting as a
representative in dealings with SSA or other agencies or prohibited by any law from acting as a
representative. Attorneys must be in good standing with the court in which they are admitted to
practice, and non-attorneys must be of good character and capable of giving valuable help. SSA
presumes that attorneys are in good standing and non-attorneys possess the necessary qualities,
absent evidence to the contrary.




1
    Throughout this report, claims at the DDS level include all initial and reconsideration claims.
2
    Social Security Act §§ 201 et seq. and 1601 et seq., 42 U.S.C. §§ 401 et seq. and 1381 et seq.
3
  The reconsideration step of the administrative review process is eliminated for DDSs participating in the Disability
Redesign Prototype (Alabama, Alaska, California—Los Angeles North and Los Angeles West Branches, Colorado,
Louisiana, Michigan, Missouri, New Hampshire, New York, and Pennsylvania). A reconsideration involves a
thorough DDS review of all evidence from the initial determination and any new evidence.



Claimant Representatives at the DDS Level (A-01-13-13097)                                                            1
SSA formulated the Rules of Conduct and Standards of Responsibility for Representatives 4 to
ensure claimants receive competent services from their representatives and improve the
efficiency of SSA’s administrative process. 5 According to these Rules, a representative must

•     act with reasonable promptness in obtaining and submitting information and evidence;
•     assist the claimant in complying with SSA or the DDS’ requests for information or evidence;
•     conduct his/her dealings efficiently, fairly, and in an orderly manner; and
•     conduct business with SSA electronically and in the manner prescribed by the Agency. 6

Generally, a representative who wants to charge or collect a fee for services provided in any
proceeding before SSA under the Social Security Act must first obtain SSA’s authorization
through SSA’s fee petition or fee agreement process. 7 If the representative is an attorney or non-
attorney who is eligible for direct payment, some, or all, of the fee SSA authorizes is paid to the
representative from withheld DI and/or SSI past-due benefits.

To conduct our review, we identified 857,855 claimants with a disability determination from the
DDS in Calendar Year (CY) 2010 who also had a representative. From this population, we
randomly selected 275 cases for detailed analysis. 8 See Appendix A for our scope and
methodology. We also contacted stakeholders to obtain their thoughts on claimant
representatives at the DDS level. See Appendix B for more information.

RESULTS OF REVIEW
We found some differences between claims with a representative and claims without a
representative. Having a representative who assisted with the claim slightly increased the
likelihood of an allowance. Conversely, claims with representatives that were not involved had a
lower allowance rate. Additionally, initial claims with representatives took longer to process




4
    20 C.F.R. §§ 404.1740 and 416.1540; SSA, POMS GN 03970.010 (August 13, 2013).
5
 SSA has a process in place for employees to refer potential criminal violations, fee violations, or violations of the
Rules of Conduct and Standards of Responsibility for Representatives to the Office of the Inspector General (OIG)
or SSA’s Office of the General Counsel (OGC); see SSA, POMS, GN 03970.015 (April 13, 2012), GN 03970.016
(November 27, 2012), and GN 03970.017 (August 13,2013).
6
 As of March 16, 2012, on matters for which the representative requests direct fee payment, he/she must file certain
medical appeals electronically. SSA, POMS GN 03970.010 B4 (August 13, 2013).
7
 SSA, POMS, GN 03920.001 (August 31, 2009). In July 2013, the OIG initiated a review on Controls over
Claimant Representative Fee Petition Payments (A-05-13-13061).
8
 We reviewed SSA’s electronic disability folder for documents signed, reviewed, or provided by the representative,
such as the disability report, function report, or medical evidence. We also looked for reports of contact and notes of
phone conversations.



Claimant Representatives at the DDS Level (A-01-13-13097)                                                                2
than the national average while reconsiderations with representatives were processed more
quickly than the national average. 9

Our 275 sample cases had 379 determinations at the DDS level with claimant representation
because 104 had a representative at both the initial claim and reconsideration levels. Of these
379 determinations, 149 were DI only, 64 were SSI only, and 166 were both DI and SSI (see
Appendix C for more information).

Of the 379 determinations, in
                                                                            Figure 1: Results of Review
•      84, we found no evidence that the
       representative assisted with the claim;                                                        Did Not Assist
                                                                                          22%

•      154, the representative assisted with filing the         37%
       claim, but did not assist the DDS with claim                                                   Assisted Only
                                                                                                      With Filing the
       development in the disability determination;                                                   Claim
       and
                                                                                                      Assisted
                                                                                                      Throughout
•      141, the representative assisted throughout the                                                Claim
       claims process. 10                                                              41%


Allowance Rates
Overall, allowance rates for cases with a representative were generally the same as the national
average but were higher when the representative assisted with the claim than when they did not.

According to SSA, the national average allowance rate for initial claims in CY 2010 was
35 percent. In our sample, we found that initial claims with representatives had a 36-percent
allowance rate. Specifically, the allowance rate was

•      40 percent in cases where the representative assisted only with filing the claim;
•      38 percent in cases where the representative assisted throughout the claims process; and
•      29 percent in cases where the representative did not assist with the claim.

According to SSA, the national average allowance rate for reconsiderations nationwide in
CY 2010 was 13 percent. In our sample, reconsiderations with representatives had an average
13-percent allowance rate. Specifically, the allowance rate was

•      11 percent in cases where the representative assisted only with filing the claim;


9
 The differences in allowance rates and processing times could be affected by a number of other factors which we
did not review. For example, representatives might accept only clients who they believe would qualify for disability
benefits.
10
     For example, these representatives provided evidence or had telephone conversations with DDS staff.



Claimant Representatives at the DDS Level (A-01-13-13097)                                                          3
•      19 percent in cases where the representative assisted throughout the claims process; and
•      11 percent in cases where the representative did not assist with the claim.

DDS Processing Times
Overall, initial claims with a representative took
                                                                            Figure 2: Processing Time for Initial Claims
longer than average to process, while
reconsiderations with a representative were
                                                                      115                                         113
processed more quickly. 11
                                                                      110
According to SSA, the average DDS processing                     101  105
time for initial claims nationwide in Fiscal Year                     100         96
(FY) 2010 was 92 days. 12 In our sample, initial                       95
claims with representatives were processed in an                       90
average of 105 days—13 days longer than the                            85
                                                            Did Not Assist Assisted with     Assisted
national average. Specifically, in cases where the                         Filing the Claim Throughout
representative assisted only with filing the claim,                                           Claim
the processing time was 96 days. Additionally, in
cases where the representative assisted throughout the claims process, the processing time was
113 days.
                                                                      Figure 3: Processing Time for Reconsiderations
According to SSA, the average processing time                                                                       113
for reconsiderations nationwide in FY 2010 was                  120
87 days. In our sample, reconsiderations with                   100
                                                                                 61                71
representatives were processed in an average of                  80
82 days—5 days quicker than the national                         60
average. Specifically, in cases where the                        40
representative assisted in filing the claim, the                 20
processing time was 71 days. Additionally, in                     0
cases where the representative assisted                                     Did Not Assist    Assisted with       Assisted
throughout the claims process, the processing                                                Filing the Claim Throughout Claim
time was 113 days.




11
  We considered processing time to be from the date the DDS received the claim until the date of the DDS
determination.
12
     For purposes of this report, we are using DI processing times.



Claimant Representatives at the DDS Level (A-01-13-13097)                                                               4
Representative Did Not Provide Assistance
Of the 379 determinations at the DDS level, we did not find any evidence that the representative
provided assistance in 84. 13 However, in 22 of the 84 disability determinations, the claimant
appointed the representative after SSA sent the claim to the DDS. The top four diagnosis codes
were back disorders, affective disorders, osteoarthrosis and allied disorders, and organic mental
disorders, which were 49 percent of the total cases.

     Table 1: Summary of Cases in Which the Representative Did Not Provide Assistance
                                                                Initial Claims        Reconsiderations
         Number of Cases                                                 56                      28
         Average Processing Time                                  101 days                 61 days
         Allowance Rate                                          29 percent              11 percent
         Disability Forms Completed Online                                1                      12
         Attorney 14                                                     39                      22
         Non-Attorney15                                                  17                       6
         Fee Agreement on File                                           42                      24
         Fee Paid                                                         9                       1
         Average Fee Paid                                            $2,187                   $538

For example, a New Jersey man applied for DI benefits in December 2009. In January 2010, he
appointed an attorney to assist with his claim. The claimant completed the forms required by the
DDS himself, even though the DDS sent a copy of the forms to the representative. We found no
evidence the representative assisted the claimant or the DDS. The DDS allowed the claim in
June 2010, and the representative received a fee of $1,892.

In another example, a Tennessee man filed for DI benefits and SSI payments in May 2009. He
appointed a non-attorney representative from a company hired by the hospital to help with his
claim, and this representative did not require a fee from the claimant. After the DDS denied his
initial claim, he filed a reconsideration and hired a different non-attorney representative from a
disability advocacy firm. We found no evidence that this representative provided any assistance


13
  In 12 of the 84 cases, it appeared the DDS had not provided the claimant representatives copies of letters sent to
the claimant. We provided these 12 cases to SSA. The Agency reviewed these and determined this happened
because of systems issues or human error. In October 2013, SSA informed us it began making systems changes in
2011 to ensure all claimant representatives automatically receive copies of all claimant correspondence. The
Agency expects to complete these systems updates for all DDSs in early 2014.
14
   All of the cases in which the attorney representative did not appear to provide assistance had fee agreements on
file.
15
  Five of the cases in which the non-attorney representative did not appear to provide assistance had fee agreements
on file, and these were all professional representatives. In the remaining cases, the non-attorney representative had
waived the fee.



Claimant Representatives at the DDS Level (A-01-13-13097)                                                              5
at the DDS level. The claimant completed his own forms even though the DDS sent letters to the
representative. The DDS denied the reconsideration, and the claimant filed an appeal, which an
attorney advisor allowed at the hearing level without holding a hearing. The representative did
not appear to provide assistance and was paid a $1,527 fee.

DDS Did Not Always Seek Help from Representative
In 26 of the 84 claims in which the representative did not assist with the claim, the DDS did not
contact the representative before making the determination. In these cases, the representative did
not receive copies of notices sent to the claimant before the final determination. If the DDS
contacted the representative, he/she may have assisted with the claim. The DDS is required to
send copies of notices and requests to both the claimant and his/her representative. 16

Representative Assisted with Filing the Claim Only
Of the 379 determinations at the DDS level, 154 had a representative who assisted with filing the
claim but did not assist the DDS with claim development. These representatives completed
disability reports that SSA staff generally complete. Of the 154 disability determinations,
58 were at the initial level while 96 were reconsiderations. The top four diagnosis codes were
back disorders, affective disorders, osteoarthrosis and allied disorders, and other and unspecified
arthropathies, which were 47 percent of the total cases.

     Table 2: Summary of Cases in Which the Representative Assisted with Filing the Claim
                                                            Initial Claims   Reconsiderations
           Number of Cases                                            58                 96
           Average Processing Time                               96 days           71 days
           Allowance Rate                                     40 percent         11 percent
           Disability Forms Completed Online                          23                 64
           Attorney                                                   27                 75
           Non-Attorney                                               31                 21
           Fee Agreement on File                                      36                 87
           Fee Paid                                                   14                 10
           Average Fee Paid                                       $1,947            $2,253

For example, a New York man filed for disability benefits in April 2010. His attorney
representative submitted the application but did not submit the required disability report. The
field office requested this document twice and when the representative submitted it, it was
incomplete. The field office forwarded this information to the DDS, which allowed the claim in




16
     SSA, POMS, DI 31001.010 B 9 (August 2, 2012).



Claimant Representatives at the DDS Level (A-01-13-13097)                                         6
August 2010 without any additional assistance from the attorney. SSA paid the attorney a
$2,393 fee from the claimant’s past-due benefits.

In another example, a Tennessee woman filed for DI benefits and SSI payments in August 2010.
She appointed a non-attorney representative and had an agreement to pay 25 percent of past-due
benefits up to $6,000 if SSA allowed her claim. At the initial level, the representative did not
provide assistance, and the DDS denied the claim. In February 2011, the representative filed a
reconsideration and submitted the required disability report to SSA. The representative did not
provide any other assistance. The claimant submitted all required forms and information to the
DDS herself, even noting that it took her several days to complete all the forms. She stated she
had to write the answer to one question at a time and rest her right arm and hand. The DDS
denied the reconsideration. The representative filed an appeal, and an ALJ allowed the claim in
July 2012. This representative provided assistance at the hearing and received a $6,000 fee.

Representative Assisted Throughout the Claims Process
Of the 379 determinations at the DDS level, 141 had a representative who assisted with the claim
throughout the claims process. Some of these representatives had telephone conversations
during which they provided DDS staff with requested information, and some provided forms
requested by the DDS. In many cases, the claimant would complete the forms and send them to
the representative, and the representatives would then submit the forms to the DDS. Of the
141 determinations, 87 were at the initial level, while 54 were reconsiderations. The top four
diagnosis codes were back disorders, affective disorders, other and unspecified arthropathies, and
anxiety disorders, which were 46 percent of the total cases.

 Table 3: Summary of Cases in Which the Representative Assisted Throughout the Claim
                                                            Initial Claims   Reconsiderations
        Number of Cases                                              87                 54
        Average Processing Time                               113 days           113 days
        Allowance Rate                                       38 percent         19 percent
        Disability Forms Completed Online                             9                 30
        Attorney                                                     52                 34
        Non-Attorney                                                 35                 20
        Fee Agreement on File                                        67                 42
        Fee Paid                                                     29                  7
        Average Fee Paid                                         $2,907            $3,390

For example, a Missouri man filed for DI benefits in February 2010 with an attorney’s help. The
attorney filed all the paperwork for him and provided all the necessary reports and medical
evidence to the DDS. The DDS allowed the claim in July 2010, and the representative received
a $993 fee.

In another example, a Texas man filed for DI benefits and SSI payments. He was represented by
a non-attorney who worked for a firm focused on helping healthcare organizations secure

Claimant Representatives at the DDS Level (A-01-13-13097)                                       7
reimbursement for uncompensated medical care expenses by generating benefit approvals. This
representative provided medical evidence at both the initial claim and reconsideration levels.
Ultimately, though the DDS had the required information, it denied the claim because the DDS
found the claimant was still able to work.

Representatives Did Not Always Comply with Requests
In some cases, the representatives may not have followed the Rules of Conduct and Standards of
Responsibility for Representatives. Some representatives did not assist the claimant in
complying with DDS’ requests for information or evidence.

For example, an Arizona woman applied for disability benefits in May 2010. The DDS sent a
form to her representative in June 2010, asking for information about additional medical sources
and her daily activities. In July 2010, the DDS denied her claim because the representative never
returned these forms. The representative then filed a reconsideration in July 2010. The DDS
sent the representative more forms to complete in September 2010. Again, the DDS denied the
claim because the representative never returned the forms. The representative then filed an
appeal in October 2010 and provided all requested information. The ALJ allowed her claim in
January 2012, and the representative received over $1,800 in fees.

In another example, an Oregon woman applied for disability benefits. Her attorney returned the
function report required by the DDS. The claimant completed the form, but the attorney whited
out some responses before returning it. For example, she answered a question asking what
chores she was able to do, but the attorney whited out the response. In addition, when asked
about her hobbies and interests she provided three answers, but one answer was whited out.
According to a note in the electronic folder, this attorney had also done this on other claims.
This representative was disqualified from being a representative in March 2011. 17

Types of Representatives                                                  Figure 4: Types of Representatives


Of the 275 cases,
                                                                          34%                              Attorney
•      181 had an attorney representative, and
•      94 had a non-attorney representative. 18                                             66%            Non-Attorney
                                                                                                           Representative




17
  The disqualification was the result of 87 charges, including altering information on applications, presenting false
signatures, providing obstructive and incorrect information to claimants, charging fees for work not performed,
improper filing and signing of internet applications, failing to provide information, and providing inaccurate
information on applications.
18
     In 5 of the 275 cases, the claimant had appointed different representatives for the initial claim and reconsideration.



Claimant Representatives at the DDS Level (A-01-13-13097)                                                                8
Attorney Representatives
Of the 275 sample cases, 181 had attorney representatives on 249 determinations at the DDS
level. These 249 determinations consisted of 118 at the initial level and 131 at the
reconsideration level. Of the 181 attorneys, 178 had fee agreements on file, and 49 received fees
averaging $2,669.

In 83 determinations (33 percent), the attorney representatives completed the disability reports
online. Our sample consists of many attorneys, including attorneys working for large national
firms such as Binder and Binder and The Disability Group. The top three disabilities were back
disorders, affective disorders, and osteoarthrosis and allied disorders, which were 69 percent of
the total cases.

SSA processed the initial claims handled by these attorneys in an average of 113 days with an
allowance rate of 34 percent. 19 In 40 claims (34 percent), the representative did not assist with
the claim; in 26 claims (22 percent), the representative assisted with filing the claim; and in
52 claims (44 percent), the representative assisted throughout the claims process.

SSA processed the reconsiderations handled by these attorneys in an average of 82 days with an
allowance rate of 14 percent. 20 In 23 claims (18 percent), the representative did not assist with
the claim; in 76 claims (58 percent), the representative assisted with filing the claim; and in
32 claims (24 percent), the representative assisted throughout the claims process.

Non-Attorney Representatives
Of the 275 sample cases, 94 had a non-attorney representative on 130 determinations at the DDS
level. These 130 determinations consisted of 83 at the initial level and 47 at the reconsideration
level. Of the 94 non-attorney representatives, 29 were eligible for direct payment from SSA, and
65 were not. SSA had 35 fee agreements on file, and 8 received fees averaging $2,130.

In 56 determinations (43 percent), the non-attorney representative completed the disability
reports online. Our sample consisted of non-attorneys working for various types of entities,
including nonprofit companies (such as health care entities and legal aid agencies); for-profit
companies (such as eligibility service companies like Chamberlin-Edmonds); and large national
firms (such as Allsup and Freedom Disability). Most of the non-attorney representatives were
professional representatives (42 percent) or worked for firms that helped hospitals increase
revenue (20 percent). See Appendix D for more information on non-attorney representatives.
The top three disabilities were back disorders, affective disorders, and fractures of the lower
limb, which were 38 percent of the total cases.



19
  According to SSA, the national allowance rate for initial claims in CY 2010 was 35 percent. Additionally, the
national processing time for initial claims in FY 2010 was 92 days.
20
  According to SSA, the national allowance rate for reconsiderations in CY 2010 was 13 percent. Additionally, the
national processing time for reconsiderations in FY 2010 was 87 days.



Claimant Representatives at the DDS Level (A-01-13-13097)                                                         9
SSA processed the initial claims handled by these non-attorneys in an average of 94 days with an
allowance rate of 39 percent. 21 In 17 claims (21 percent), the representative did not assist with
the claim; in 31 claims (37 percent), the representative assisted with filing the claim; and in
35 claims (42 percent), the representative assisted throughout the claims process.

SSA processed the reconsiderations handled by these non-attorneys in an average of 84 days
with a 13-percent allowance rate. 22 In 6 claims (13 percent), the representative did not assist
with the claim; in 21 claims (45 percent), the representative assisted with the filing of the claim;
and in 20 claims (42 percent), the representative assisted throughout the claims process.

Feedback from Stakeholders
We reached out to stakeholders to obtain their thoughts on claimant representatives at the DDS
level. Most of the organizations we contacted stated that representatives should have access to
the electronic folder during the DDS claims process. 23 One organization stated that access to the
file would be most helpful in advocating and processing claims in a timely manner. See
Appendix B for more information on stakeholder responses.

CONCLUSIONS
We found some differences between claims with a representative and claims without a
representative. The degree to which representatives assist claimants can vary greatly.

AGENCY COMMENTS
SSA reviewed the draft report but did not provide any comments. See Appendix E.




21
  According to SSA, the national allowance rate for initial claims in CY 2010 was 35 percent. Additionally, the
national processing time for initial claims in FY 2010 was 92 days.
22
  According to SSA, the national allowance rate for reconsiderations in CY 2010 was 13 percent. Additionally, the
national processing time for reconsiderations in FY 2010 was 87 days.
23
  In 2009, SSA initiated a project—the Appointed Representative Suite of Services—that would provide a
comprehensive set of electronic services, allowing representatives to conduct most of their SSA business online. At
the time of our review, only representatives with appeals pending at the hearing level could obtain access to the
electronic folder to monitor their client’s cases. This service was not available at the DDS level.



Claimant Representatives at the DDS Level (A-01-13-13097)                                                         10
                                       APPENDICES




Claimant Representatives at the DDS Level (A-01-13-13097)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objective, we:

•   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, policies, and procedures, as well as other applicable
    Federal regulations.
•   Reviewed the Social Security Advisory Board Report, Filing for Social Security Disability
    Benefits: What Impact Does Professional Representation Have on the Process at the Initial
    Application Level?, September 2012.
•   Obtained a file of 857,855 claimants with a disability determination from the disability
    determination services in Calendar Year 2010 who also had a representative. We tested the
    data and concluded they were reliable to meet our audit objective.
•   Selected a random sample of 275 cases for detailed review. For each case, we reviewed the
    electronic folder and SSA’s records to determine
             o to what extent the representative assisted with the claim, 1
             o the allowance rates and processing times of the claims, and
             o the fees paid to the representative.
•   Contacted the National Association of Disability Examiners, National Council of Social
    Security Management Associations, National Council of Disability Determination Directors,
    National Organization of Social Security Claimants’ Representatives, and National
    Association of Disability Representatives.
•   Provided SSA 12 cases in which it appeared the claimant representative had not received
    copies of letters or notices sent to the claimant.

We conducted our review between March and July 2013 in Boston, Massachusetts. The
principal entities audited were the Office of Disability Determinations and SSA’s field offices
and program service centers under the Office of the Deputy Commissioner for Operations. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




1
  Our review was limited to documents the Agency added to the electronic folder. We looked for documents signed,
reviewed, or provided by the representative, such as the disability report, function report, or medical evidence. We
also looked for reports of contact and notes of phone conversations.



Claimant Representatives at the DDS Level (A-01-13-13097)                                                       A-1
Appendix B – FEEDBACK FROM STAKEHOLDERS
We reached out to stakeholders to obtain their thoughts on claimant representatives at the
disability determination services (DDS) level. Below is a summary of their responses.

•   National Association of Disability Examiners (NADE) 1 stated that some representatives
    assisted in obtaining evidence, allowed the DDS to contact the claimant directly, and assisted
    in getting information. There are claimants with mental impairments or cognitive deficits in
    which having a representative is beneficial to adjudication. The majority of NADE member
    responses indicated that representatives increase processing time for various reasons, such as
    indicating they will assist with collection of needed evidence or documentation and then fail
    to produce it in a timely manner or not allowing the DDS to speak with the claimant directly.

•   National Council of Social Security Management Associations (NCSSMA) 2 stated that when
    representatives provide conscientious service to the claimant and submit fully developed
    claims in a timely manner, both the claimant and the Agency win. NCSSMA felt that the
    Agency should improve electronic and automation systems. In May 2013, the group issued a
    letter to the Social Security Administration’s (SSA) Deputy Commissioner for Operations
    recommending the Agency expand representative’s access to electronic folder and automate
    representative data.

•   National Council of Disability Determination Directors (NCDDD) 3 stated that while some
    representatives can be very beneficial to the claims process, others significantly hinder the
    process in various ways. A representative’s delaying of the claim process could reasonably
    result from an inaccurate understanding of the program. However, intentional delaying for
    monetary gain is also a possibility. Representatives should have access to the electronic
    folder during the DDS claims process. Additionally, NCDDD stated representatives should
    be held accountable for representing their client’s best interests, including ensuring timely
    and thorough collection of pertinent evidence, clarification of unclear or conflicting
    information, and client attendance at essential appointments. Payment policies should be
    reassessed for better alignment with high quality service to claimants.




1
 The purpose of NADE is to develop the art and science of disability evaluation, enhance public awareness about
disability evaluation, and further professional recognition for disability evaluation practitioners. See
http://nade.org/.
2
 NCSSMA is dedicated to improving management and program administration in SSA by assuring the knowledge
and experience of front-line management are included in all phases of agency planning and decisionmaking. See
http://ncssma.org/.
3
  NCDDD’s mission is to provide the highest possible level of service to persons with disabilities, to promote the
interests of the DDS and to represent DDS Directors, their management teams, and staffs. See http://ncddd.org/.



Claimant Representatives at the DDS Level (A-01-13-13097)                                                            B-1
•   National Organization of Social Security Claimants’ Representatives (NOSSCR) 4 provided
    the results of a survey issued to its members about representing claimants at the initial and
    reconsideration levels. A large number of respondents would like online access to their
    client’s files. Many respondents also commented that DDS staff was hard to reach by
    telephone and better communication with representatives would be valuable. Additionally,
    NOSSCR respondents felt that the DDS should have a process to more regularly notify the
    representative if they cannot obtain certain evidence, because sometimes the representatives
    are able to obtain it.

•   National Association of Disability Representatives (NADR) 5 stated that its members were
    concerned with the lack of access to their claimants’ files. Access to the file would be most
    helpful in advocating and processing claims in a timely manner. This would alleviate
    difficulties some representatives have with getting medical records. NADR members find
    that professional representation will increase the likelihood of an award and in most cases
    maximize the benefits due to the claimant.




4
  NOSSCR’s purpose is to provide representation for individuals with disabilities, to maintain a system of full and
fair review for every claimant and beneficiary, and advocate for improvements in the disability determination and
adjudication process. See http://www.nosscr.org/.
5
 NADR’s purpose is to serve the existing membership's needs in the area of professional education and political
action, and to maintain and enhance members’ skills. See http://www.nadr.org/.



Claimant Representatives at the DDS Level (A-01-13-13097)                                                         B-2
Appendix C – BREAKOUT OF CLAIMS BY STATE AND CLAIM
             TYPE
To conduct our review, we identified 857,855 claimants with a disability determination from the
disability determination services in Calendar Year 2010 who also had a representative. From
this population, we randomly selected 275 cases for detailed analysis. Table C–1 shows the
breakout of the 275 cases by the claimant’s State of residence.

                                Table C–1: Sample Cases by State
                                         State              Sample
                                                             Cases
                                  Alabama                       2
                                  Arizona                       4
                                  Arkansas                      6
                                  California                   22
                                  Colorado                      5
                                  Connecticut                   1
                                  Florida                      23
                                  Georgia                      13
                                  Idaho                         2
                                  Illinois                      8
                                  Indiana                      12
                                  Iowa                          3
                                  Kansas                        5
                                  Kentucky                     12
                                  Louisiana                     1
                                  Maryland                      5
                                  Massachusetts                 6
                                  Michigan                      2
                                  Minnesota                     3
                                  Mississippi                   4
                                  Missouri                      9
                                  Nebraska                      1
                                  Nevada                        1
                                  New Hampshire                 1
                                  New Jersey                    6
                                  New Mexico                    3
                                  New York                     12


Claimant Representatives at the DDS Level (A-01-13-13097)                                   C-1
                                         State              Sample
                                                             Cases
                                  North Carolina               13
                                  Ohio                          8
                                  Oklahoma                      6
                                  Oregon                        4
                                  Pennsylvania                 11
                                  Puerto Rico                   1
                                  Rhode Island                  1
                                  South Carolina                4
                                  Tennessee                    15
                                  Texas                        26
                                  Utah                          1
                                  Virginia                      5
                                  Washington                    4
                                  West Virginia                 3
                                  Wisconsin                     1
                                  Total                       275

Our 275 sample cases had 379 determinations at the DDS level with claimant representation
because 104 had a representative at both the initial claim and reconsideration levels. These
379 determinations were for Disability Insurance (DI) claims, Supplemental Security Income
(SSI) claims, and both DI and SSI claims (concurrent).

                     Table C–2: Breakout of Initial Claims by Claim Type
                                     DI Claims         SSI Claims    Concurrent      Total
                                                                       Claims
      Number of Cases                      79                37           85         201
  Average Processing Times
                                         100                102         111          105
          in Days
        Allowances                        33                 13          26           72
          Denials                         46                 24          59          129
      Allowance Rate                 42 percent         35 percent   31 percent    36 percent




Claimant Representatives at the DDS Level (A-01-13-13097)                                      C-2
                   Table C–3: Breakout of Reconsiderations by Claim Type
                                     DI Claims         SSI Claims    Concurrent     Total
                                                                       Claims
      Number of Cases                       70               27            81        178
  Average Processing Times
                                            81               92           81          82
          in Days
        Allowances                          9                  3          12          24
          Denials                          61                 24          69         154
      Allowance Rate                 13 percent         11 percent   15 percent   13 percent




Claimant Representatives at the DDS Level (A-01-13-13097)                                   C-3
Appendix D – NON-ATTORNEY REPRESENTATIVES
Non-attorney Representative Requirements
A claimant may appoint a representative, either an attorney or a non-attorney, to represent
him/her in pursuing his/her claim. 1 A non-attorney may serve as a claimant’s representative if
he/she is

•      generally known to have a good character and reputation;

•      capable of giving valuable help to the claimant in connection with the claim;

•      not disqualified or suspended from acting as a representative in dealings with the Social
       Security Administration (SSA); and

•      not prohibited by any law from acting as a representative.

SSA did not define the terms “good character and reputation” or “valuable help.” The Agency
will presume that an appointed or prospective non-attorney representative is of good character
and reputation and capable of giving valuable help absent evidence to the contrary.

Generally, a representative who wants to charge or collect a fee for services provided in any
proceeding before SSA under the Social Security Act must first obtain SSA’s authorization. 2 A
non-attorney representative may become eligible for direct payment from SSA. To be eligible
for direct payment, a non-attorney representative must

•      possess a bachelor’s degree or equivalent qualifications;

•      pass a written examination administered by SSA;

•      secure professional liability insurance or equivalent;

•      undergo a criminal background check; and

•      complete continuing education courses. 3




1
    SSA, POMS, GN 03910.010B (March 14, 1995).
2
    SSA, POMS, GN 03920.001 (August 31, 2009).
3
    Social Security Act § 206(e)(2), 42 U.S.C. § 406(e)(2).



Claimant Representatives at the DDS Level (A-01-13-13097)                                          D-1
    Some examples of non-attorney representatives in our sample are

    •   social workers;

    •   employees at hospitals and rehabilitation centers; and

    •   employees of companies that specialize in helping hospitals increase revenue by helping
        patients obtain Social Security benefits.

    Non-Attorney Representatives in Sample Cases
    Our 275 sample cases had 379 determinations at the disability determination services level with
    claimant representation because 104 had a representative at both the initial claim and
    reconsideration levels. In these 379 determinations, 249 had attorney representatives, and
    130 had non-attorney representatives.

    As shown in Table D–1, most of the non-attorney representatives were professional
    representatives or worked for firms that helped hospitals increase revenue. Table D–2 shows the
    fee arrangements between the non-attorney representatives and the claimants.

                      Table D–1: Non-Attorney Representatives in Sample Cases
 Type of Non-Attorney Representative               Initial    Reconsideration      Total     Proportion
                                               Determinations Determinations
Professional Representative                              30           24              54           41%
Employee of a Firm Helping Hospitals
                                                           21           5             26           20%
with Revenue
Professional Representative Working for a
                                                                8       6             14           11%
Law Firm
Social Worker                                                   6       4             10              8%
State Agency Employee (not in a
                                                                5       3              8              6%
disability determination services)
Professional Representative Working for a
                                                                4       1              5              4%
Long-Term Disability Insurance Carrier
Unknown                                                         3       2              5              4%
Professional Representative Working for a
                                                                3       0              3              2%
State Agency
Legal Aid Society Employee                                      1       2              3              2%
Homeless Advocate                                               1       0              1              1%
Relative                                                        1       0              1              1%
Total                                                      83          47           130           100%




    Claimant Representatives at the DDS Level (A-01-13-13097)                                     D-2
            Table D–2: Non-Attorney Representatives Fee Agreements in Sample Cases
      Type of Non-Attorney                 Initial    Reconsideration                  Total       Proportion
          Representative               Determinations Determinations
    Fee Waived Altogether                        41          14                          55             42%
    Fee Agreement on File                        26          22                          48             37%
    Waived Direct Payment 4                      15          10                          25             19%
    No Information on Fee                          1          1                           2              2%
    Total                                           83                  47              130           100%




4
  In 10 of the 25 determinations in which the non-attorney representative waived direct payment from the claimant, a
third party (such as an insurance company) agreed to pay the representative’s fee.



Claimant Representatives at the DDS Level (A-01-13-13097)                                                       D-3
           Appendix E – AGENCY COMMENTS




                                          SOCIAL SECURITY


MEMORANDUM


Date:      January 27, 2014                                                        Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Claimant Representatives at the Disability
           Determination Services Level” (A-01-13-13097) -- INFORMATION

           Thank you for the opportunity to review the draft report. We agree with the report as written and
           offer no comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Claimant Representatives at the DDS Level (A-01-13-13097)                                     E-1
Appendix F – MAJOR CONTRIBUTORS
Judith Oliveira, Director, Boston Audit Division

Phillip Hanvy, Audit Manager

Kevin Joyce, IT Specialist

Katie Greenwood, Senior Auditor

Brennan Kraje, Statistician




Claimant Representatives at the DDS Level (A-01-13-13097)   F-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
